OIG Investigative Reports Press Release Mount Pocono PA., 03/26/2013 - Former Pennsylvania Charter School Operator Charged With Federal Income Tax Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
MIDDLE DISTRICT of PENNSYLVANIA
NEWS
Former Pennsylvania Charter School Operator Charged With Federal Income Tax Fraud
FOR IMMEDIATE RELEASE
March 26, 2013
The United States Attorney's Office for the Middle District of Pennsylvania announced that a federal grand jury in Scranton has handed up a two count Indictment today charging Dennis Bloom, age 58, of Mount Pocono, Pennsylvania, with tax fraud. Specifically, Bloom is charged with one count of tax evasion and one count of filing a false tax return as a result of his alleged failure to include a substantial amount of income in his 2006 federal income tax return. Bloom is the former chief executive officer of the Pocono Mountain Charter School and Pastor of Shawnee Tabernacle Church, both in Mount Pocono.
According to United States Attorney Peter J. Smith, the charges stem from an investigation initiated by the Internal Revenue Service-Criminal Investigations and the U.S. Department of Education, Office of Inspector General. Prosecution is assigned to Assistant United States Attorney Lorna N. Graham.
"The Role of IRS-Criminal Investigation becomes more important in embezzlement and fraud cases due to the complex financial transactions that can take time to unravel," said Akeia Conner, Special Agent in Charge of the IRS-Criminal Investigation, Philadelphia Field Office.   "As we often see, the victims are not only taxpayers but also the individuals and entities who suffer the financial harm.  Be assured that we are serious about investigating these crimes and we will vigorously pursue criminals who steal from the American taxpayer."
Indictments and Criminal Informations are only allegations. All persons charged are presumed to be innocent unless and until found guilty in court.
A sentence following a finding of guilty is imposed by the Judge after consideration of the applicable federal sentencing statutes and the Federal Sentencing Guidelines.
In this particular case, the maximum penalty under the federal statute is eight years' imprisonment, a term of supervised release following imprisonment, and a fine. Under the Federal Sentencing Guidelines, the Judge is also required to consider and weigh a number of factors, including the nature, circumstances and seriousness of the offense; the history and characteristics of the defendant; and the need to punish the defendant, protect the public and provide for the defendant's educational, vocational and medical needs. For these reasons, the statutory maximum penalty for the offense is not an accurate indicator of the potential sentence for a specific defendant.
#####
Top
Printable view
Last Modified: 03/28/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov